                                                              U.S. Department of Justice

                                                              United States Attorney
                                                              Western District of Washington

Jenny A. Durkan                                               U.S. Courthouse
United States Attorney                                        700 Stewart Street, Suite 5220
                                                              Seattle, Washington 98101
                                                              206-553-7970

FOR IMMEDIATE RELEASE                                         PRESS CONTACT:
February 28, 2012                                             Emily Langlie 206-553-4110

   FOUR MEMBERS OF A SOUTH KING COUNTY FAMILY PLEAD GUILTY TO
                       DISABILITY FRAUD SCHEME
          Defendants Defrauded SSI for more than 30 Years and $350,000

        Four members of one family pleaded guilty today in U.S. District Court in Seattle to a
scheme to defraud the Social Security Administration and Washington State Department of
Social and Health Services of more than $350,000. The 30-year fraud involved a couple and
their children pretending that various family members were developmentally disabled and
needed constant care. Not only did the parents apply for benefits, they had their children apply
for benefits as either disabled, or as caregivers. The children continued the fraud once they
became adults. JOHNNY GEORGE, 54, LINDA GEORGE, 55, and their children PAUL
GEORGE, 35, and CRISTINA GEORGE aka Cookie Miller, entered guilty pleas to a variety of
fraud and theft charges. A second daughter, DANNA GEORGE, had already entered a guilty
plea. U.S. District Judge Robert S. Lasnik is scheduled to sentence the four in June 2012.

        The GEORGE family fraud continued over a 31-year period, netting the defendants more
than $350,000. The scam began in 1979 when JOHNNY GEORGE fraudulently obtained a
second Social Security number and, using this second identity, applied for disability. In 1983,
JOHNNY GEORGE and his wife, LINDA GEORGE applied for disability on behalf of their son
PAUL GEORGE. Both men claimed to be developmentally disabled and unable to work or care
for themselves. JOHNNY GEORGE claimed to be unable to feed himself, read, write or work.
At the same time he claimed to be disabled, however, JOHNNY GEORGE owned and operated a
used car lot. PAUL GEORGE claimed to be profoundly disabled, and unable to care for himself,
but he was also working in the business of buying and selling cars. The men used alternate
Social Security numbers to live non-disabled lives at the same time they were collecting benefits.
LINDA GEORGE, who is JOHNNY’s wife and PAUL’s mother, made numerous false
statements to Social Security and to evaluators, and obtained numerous false identity documents.
LINDA GEORGE served as their representative payee and she received and cashed the monthly
benefit checks for her husband and son.

         CHRISTINA GEORGE, the daughter of JOHNNY and LINDA GEORGE, also used
false identities to illegally collect benefits from state and federal programs. In the Cookie Miller
fake persona, she applied to be the representative payee of a person named L.M., who also
falsely claimed to be disabled. She was paid nearly $24,000 in benefits she did not deserve.
CHRISTINA GEORGE also claimed to DSHS that she provided in home daily care to S.G., an
elderly family member who resided in Kent, Washington, even though CHRISTINA GEORGE
resided in Vancouver, Washington, nearly 150 miles away. From February 2010, to June 2011,
DSHS fraudulently paid CHRISTINA more than $19,000 for caretaking services she did not
perform.

        The case is one of a number of disability fraud cases filed in U.S. District Court in the
Western District of Washington this year. The cases are being investigated by the Social Security
Office of Inspector General (SSA-OIG) Cooperative Disabilities Investigation Unit and the U.S.
Department of Housing and Urban Development Office of Inspector General (HUD-OIG), with
assistance from the Washington State Patrol, the Washington State Department of Social and
Health Services Office of Fraud and Accountability, and the Washington State Department of
Licensing Fraud Investigation Unit.

       The cases are being prosecuted by Assistant United States Attorney Mary K. Dimke and
Special Assistant United States Attorney Seth Wilkinson. Mr. Wilkinson is an attorney with the
Social Security Administration specially designated to prosecute Social Security fraud in federal
court.

       For additional information please contact Emily Langlie, Public Affairs Officer for the
United States Attorney’s Office, at (206) 553-4110 or Emily.Langlie@USDOJ.Gov.
